CERTIFICATE OF SERVICE
NO. 19-600
Jon Krakauer
Petitioner,
v.
State of Montana, by and Through Its Commissioner of Higher Education Clayton T. Christian
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JON
KRAKAUER REPLY BRIEF OF PETITIONER, by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:
Helen Clair Thigpen
Montana Commissioner of Higher Education
Montana University System
560 N. Park Avenue, 4th Floor
Helena, MT 59620-3201
(406) 449-9167
hthigpen@montana.edu
Counsel for Clayton Christian, et al.

David R. Paoli
Paoli Law Firm
P.O. Box 8131
Missoula, MT 59802
(406) 542-3330
davidpaoli@paoli-law.com
Counsel for John Doe

Dan Abramovich
January 17, 2020
SCP Tracking: Meloy-P.O. Box 1241-Cover Tan

